Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Trends in Rural Hospital Closure
             1990-2000




                   JANET REHNQUIST
                      Inspector General
                         May 2003
                      OEI 04-02-00610
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE                       SUMMARY

OBJECTIVE

          To summarize the extent, characteristics, reasons for, and impact of rural hospital closures from
          calendar years 1990 through 2000.


BACKGROUND

          Hospital closures have generated concern among the health care industry, government leaders,
          and the general public. Of particular interest were the reasons for and impact of the closures.

          In May 1989, the Office of Inspector General (OIG) released a report describing the
          phenomenon of urban and rural hospital closures within the United States during calendar year
          1987. Many users of that information encouraged us to continue a yearly analysis to determine
          the rate of closure as well as trends in the characteristics and circumstances of hospitals that
          closed. Consequently, we conducted similar annual inspections documenting hospitals that
          closed through calendar year 2000.

          In 1993, the OIG released a report describing trends associated with rural hospitals that closed
          from 1987 through 1991. Our current inspection broadens that information and focuses on the
          extent and characteristics, as well as the reasons for and effects of rural hospitals that closed
          during 1990-2000. We are issuing a separate report documenting the unique circumstances
          that led to urban hospital closures, “Trends in Urban Hospital Closure: 1990-2000" (OEI-04-
          02-00611).

          To determine the extent, characteristics, reasons for, and impact of rural hospital closures
          during calendar year 1990-2000, we reviewed and expanded upon the information previously
          documented in our annual hospital closure reports. For those reports, we compiled hospital
          data from two Centers for Medicare & Medicaid Services (CMS) databases: the Hospital
          Cost Report Information System (HCRIS) and Provider of Service (POS) file. Additionally,
          we interviewed officials associated with each of the closed hospitals as well as representatives
          from state hospital and licensing agencies.


FINDINGS

          Our review of rural hospitals that closed from 1990 through 2000 revealed the following:

          208 rural hospitals closed -- 7.8 percent of all rural hospitals nationally at the
          beginning of the trend period.


Trends in Rural Hospital Closure: 1990-2000           i                                        OEI-04-02-00610
          •          The average annual rate of closure was less than 1 percent.

          •	         Rural bed supply was reduced by 3.7 percent (8,228 of the 220,028 rural beds
                     nationally in 1990).

          Generally, rural hospitals that closed were smaller and treated fewer patients than
          rural hospitals nationally.

          •	         Rural hospitals that closed averaged fewer beds, lower occupancy rates and annual net
                     income, and slightly lower Medicare and Medicaid utilization rates compared to rural
                     hospitals nationally.

                     <         Size: 39.6 beds compared to 75.4 beds nationally
                     <         Occupancy: 25.4 percent compared to 35.6 percent nationally
                     <         Net income: $1,488 compared to $799,560 nationally
                     <         Medicare utilization: 53.9 percent compared to 55.5 percent nationally
                     <         Medicaid utilization: 11 percent compared to 12.1 percent nationally

          •	         Rural hospitals that closed were used by about one-third as many patients as rural
                     hospitals nationally. Specifically, their average daily census was:

                     <         Total patients: 10 patients, compared to 27 patients nationally
                     <         Medicare patients: 5 patients, compared to 15 patients nationally
                     <         Medicaid patients: 1 patient, compared to 3 patients nationally

          Officials associated with most rural hospitals that closed reported the reasons to be
          business-related decisions or a low number of patients.

          •	         From 1998 through 2000, 58 rural hospitals closed. Officials associated with most of
                     those hospitals reported multiple reasons for closure; however, the primary reasons
                     were as follows:

                     <	        Business decisions: Twenty-five (43.1 percent) reported that the reason for
                               closure was based on relocation, consolidation, or merger.
                     <	        Number of patients: Fourteen (24.1 percent) attributed closure to low
                               occupancy/low census.
                     <	        Medicare and Medicaid reimbursements: Six (10.3 percent) reported
                               insufficient Medicare and/or Medicaid reimbursements as reasons for closure;
                               however, officials with five of those facilities stated that other factors, such as
                               low occupancy, also contributed.
                     <	        Other reasons: The remaining 13 (22.4 percent) reported various other
                               reasons, such as competition or rising costs.


Trends in Rural Hospital Closure: 1990-2000                 ii                                         OEI-04-02-00610
          •	         During 1990-1997, we reported on the reasons for hospital closure in four of our
                     annual reports (1990, 1993, 1996, and 1997); however, that information did not
                     differentiate between urban and rural closures. During those years, hospitals (urban
                     and rural combined) generally closed because of low occupancy, lagging revenues,
                     rising costs, or a combination of those factors.

          Following a closure, alternative forms of health care were often available within the
          community.

          •	         Most rural residents had access to inpatient and emergency services within 20 miles of
                     the closed hospital.

                     <	        Inpatient care: In 138 of the 208 (66.3 percent) rural communities where a
                               hospital closed, inpatient care was available within 20 miles of the closed
                               hospital. Furthermore, residents in 185 (88.9 percent) of those communities
                               could get inpatient care within 30 miles from the closed hospital.
                     <	        Emergency care: In 163 of the 208 (78.4 percent) rural communities where a
                               hospital closed, emergency care was available within 20 miles of the closed
                               hospital. Residents in 201 (96.6 percent) of those communities could get
                               emergency care within 30 miles from the closed hospital.

          •	         Rural hospital openings, critical access hospitals, and rural health clinics have reduced
                     the overall impact of rural hospital closure.

                     <	        Hospital openings: During 1998-2000, 28 rural hospitals either opened or
                               reopened, reducing the national impact of the 58 rural hospitals that closed
                               during that those 3 years. Additionally, 64 hospitals (urban and rural) opened
                               or reopened from 1990 through 1997. Prior to 1998, however, we did not
                               identify such data specific to rural or urban classifications. Therefore, we
                               cannot identify how many of the 64 openings were in rural communities.

                     <	        Critical Access Hospitals: As of May 2002, 604 critical access hospitals
                               (CAHs) were operating in rural areas across the country. The critical access
                               classification is intended to provide an increased level of Medicare
                               reimbursements to small rural hospitals -- potentially avoiding closure.

                     <	        Rural Health Clinics (RHCs): Of the 58 rural hospitals that closed from 1998
                               through 2000, 40 of the buildings were either used for or located less than 20
                               miles from a rural health clinic. Furthermore, in 32 of those communities,
                               multiple RHCs were less than 20 miles from the closed hospitals. We did not
                               maintain such data prior to 1998.




Trends in Rural Hospital Closure: 1990-2000               3                                         OEI-04-02-00610
                           TABLE OF CONTENTS


                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS

          Extent and Characteristics of Rural Hospitals That Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                     Number of rural hospitals that closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                     Characteristics of rural hospitals that closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Reasons for Rural Hospitals Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Impact of Rural Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                     Distance to inpatient and emergency care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                     Factors that reduced the impact of rural hospital closure . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES

          A. Rural Hospital Closures By State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B. Medicare and Medicaid Utilization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Trends in Rural Hospital Closure: 1990-2000                        1                                                    OEI-04-02-00610
                                        INTRODUCTION

OBJECTIVE

          To summarize the extent, characteristics, reasons for, and impact of rural hospital closures from
          calendar years 1990 through 2000.


BACKGROUND

          Hospital closures have generated concern among the health care industry, government leaders,
          and the general public. Of particular interest were the reasons for and impact of the closures.

          In May 1989, the Office of Inspector General (OIG) released a report describing the
          phenomenon of urban and rural hospital closures within the United States during calendar year
          1987. Many users of that information encouraged us to continue a yearly analysis to determine
          the rate of closure as well as trends in the characteristics and circumstances of hospitals that
          closed. Consequently, we conducted similar annual inspections documenting hospitals that
          closed through calendar year 2000.

          In 1993, the OIG released a report that addressed trends associated with rural hospitals that
          closed from 1987-1991, “Trends in Rural Hospital Closure: 1987-1991"(OEI-04-92-00441).
          Our current inspection broadens that information and reports on the issue of rural hospital
          closures during 1990-2000. We are issuing a separate report documenting the unique
          circumstances that led to urban hospital closures, “Trends in Urban Hospital Closure: 1990-
          2000" (OEI-04-02-00611).


METHODOLOGY

          To determine the extent, characteristics, reasons for, and impact of rural hospital closures
          during calendar year 1990-2000, we reviewed and expanded upon the information previously
          documented in our annual hospital closure reports. For those reports, we compiled hospital
          data from two Centers for Medicare & Medicaid Services (CMS) databases: the Hospital
          Cost Report Information System (HCRIS) and Provider of Service (POS) file. For each
          hospital that closed, we obtained cost report data accounting for the most recent full fiscal year
          prior to closure. Additionally, we interviewed officials associated with each of the closed
          hospitals as well as representatives from state hospital and licensing agencies.




Trends in Rural Hospital Closure: 1990-2000           2                                         OEI-04-02-00610
          We compiled data for hospitals that closed during the entire 11-year trend period -- including
          average number of beds, average occupancy, Medicare and Medicaid utilization, and the
          average number of patients affected -- by calculating weighted averages using the data we
          collected from our previous hospital closure reports. Due to rounding, some minor variation
          may exist between the data in this report when compared to the data in our annual hospital
          closure reports. Additionally, we compiled net income data directly from HCRIS.

          To supplement the data, we contacted state licensing and certification agencies, state hospital
          associations, and state health planning agencies. Further, we surveyed various officials that
          were directly or indirectly associated with each hospital. Such officials included:

          <          Former hospital executives and physicians of the closed rural facilities,

          <          Executives from nearby hospitals,

          <          Local health and government officials, and

          <          Officials associated with parent corporations of closed hospitals.

          We determined the distance from closed rural hospitals to the closest operating hospitals and
          emergency services using maps and mapping programs (e.g., Mapquest) in addition to the
          information provided by the various officials we interviewed.

          We used data sets previously developed for our annual hospital closure reports to quantify rural
          hospitals that opened from 1998 through 2000. Prior to 1998, we did not identify such data
          specific to rural or urban classifications. The reported data was an aggregated total of openings
          and reopenings.

          We analyzed the Balanced Budget Act of 1997 and the Balanced Budget Refinement Act of
          1999 to determine the advantages and requirements specific to critical access hospitals.
          Additionally, we obtained a complete listing of Rural Health Clinics (RHCs) from CMS’ Online
          Survey Certification Report System (OSCAR). We used SAS to quantify the approximate
          distance from RHCs to the rural hospitals that closed from 1998 through 2000. Distance was
          determined by cross referencing the zip code of each closed hospital with the zip code of each
          RHC.

          We used the following definitions as we examined rural hospitals that closed during calendar
          years 1990-2000:

          Rural Hospital:	                A facility located in a rural area that provided general, short-term, acute
                                          medical and surgical inpatient services.




Trends in Rural Hospital Closure: 1990-2000                   3                                         OEI-04-02-00610
          Closed Hospital:	               A facility that stopped providing general, short-term, acute inpatient
                                          care during 1990-2000. We did not consider a hospital closed if it:

                                          <	      Merged with, or was sold to, another hospital but the physical
                                                  plant continued to provide inpatient acute care,

                                          <       Converted to critical access status, or

                                          <	      Both closed and reopened during the same calendar year and
                                                  at the same physical location.



          We conducted our inspection between July 2002 and December 2002. We conducted this
          inspection in accordance with the Quality Standards for Inspections issued by the President’s
          Council on Integrity and Efficiency.




Trends in Rural Hospital Closure: 1990-2000                  4                                         OEI-04-02-00610
                                              FINDINGS

          For more than a decade, the closure of rural hospitals has generated considerable public
          interest. This issue also generated concern among the health care industry and Congress.
          Specific areas of interest included the extent, characteristics, reasons for, and impact of hospital
          closures. Our national review of rural hospital closures that occurred from 1990 through 2000
          revealed that:

          <          Two hundred-eight hospitals closed -- 7.8 percent of all rural hospitals.

          <	         Rural hospitals that closed were generally smaller and treated fewer patients than rural
                     hospitals nationally.

          <	         Generally, rural hospital closures resulted from business-related decisions or a low
                     number of patients.

          <	         Following a closure, alternative forms of health care were often available within the
                     community.


Extent and Characteristics of Rural Hospitals That Closed

Number of rural hospitals that closed

          During 1990-2000, 208 rural hospitals closed. At the beginning of the trend period, 5,466
          general, short-term, acute care hospitals were included nationally in CMS’ HCRIS database.
          Of those, 2,667 (48.8 percent) were classified as rural hospitals.


                Rural Hospitals in the U.S. in 1990                                2,667

                Rural Hospitals that Closed from 1990 through 2000                   208 (7.8%)



          The average annual rate of hospital closure was less than 1 percent. The most closures for any
          given year occurred in 1991, when 36 rural hospitals closed. The lowest number occurred in
          1994, when 5 rural hospitals closed. See Appendix A for state-specific data. Figure 1
          illustrates the annual rate of rural closure.




Trends in Rural Hospital Closure: 1990-2000              5                                         OEI-04-02-00610
          During the 11-year period, hospital closures reduced the inpatient bed supply in rural areas by
          3.7 percent (8,228 of the 220,028 rural beds nationally at the beginning of the trend period).

Characteristics of rural hospitals that closed

          Size : On average, rural hospitals that closed were considerably smaller than those that
          remained open. During 1990-2000, the closed hospitals averaged 39.6 beds compared to an
          average of 75.4 beds for rural hospitals nationally. An annual comparison of hospital size is
          illustrated in the figure below.




Trends in Rural Hospital Closure: 1990-2000          6                                        OEI-04-02-00610
          Occupancy: During the 11-year trend period, rural hospitals that closed had an average
          occupancy rate of 25.4 percent compared to an average of 35.6 percent for rural hospitals
          nationally.1 Additionally, on an annual basis, occupancy was consistently lower for rural
          hospitals that closed. An annual comparison of average occupancy is illustrated in the following
          figure.




          Net income : The average net income (the year prior to closure) for rural hospitals that closed
          was $1,488 compared to an average of $799,560 for rural hospitals nationally. A net loss for
          the closed hospitals occurred in 7 out of the 11 years that made up the trend period. In
          contrast, rural hospitals nationally averaged a positive net income for each of the 11 years. An
          annual comparison is illustrated in Figure 4.




          1
           We calculated average occupancy by dividing the actual number of patient days by the total bed days available for
rural hospitals nationally (including those that closed). Then we summed the results and divided by the respective numbers of
rural hospitals -- closed and nationally.

Trends in Rural Hospital Closure: 1990-2000                    7                                                 OEI-04-02-00610
          The high average net income for rural hospitals that closed in 2000 is attributed to multiple
          consolidations or changes in location2 that occurred during that year. Those same factors
          contributed to a higher average size and occupancy for 2000.

          Nine of the 22 rural hospitals that closed reported a positive net income for their previous fiscal
          year. Of those nine facilities, six closed their existing facilities to move to new, state-of-the-art
          buildings and three closed to consolidate services that were already under the same ownership.
          The following table shows the difference in size, occupancy, and net income for 2000 when the
          nine profitable facilities are removed from the averages.


       Average Occupancy, Size, and Net Income For Rural Hospitals That Closed in 2000
                                                         Occupancy              Size (# of beds)           Net Income
    Overall Averages                                      35.1%                        64                  $1,360,713
    Averages without the Nine                               29.1%                       63                ($1,399,130)


          Medicare and Medicaid utilization: According to hospital cost report data for 1990 through
          2000, rural hospitals that closed had slightly lower Medicare and Medicaid utilization rates than
          rural hospitals nationally. The average Medicare utilization for rural hospitals that closed was
          53.9 percent, compared to 55.5 percent for rural hospitals nationally. 3




          When a hospital changes location, we report this to be a closure; however, the closure is offset by an opening based on
          2


the new location.

          3
           We calculated average Medicare utilization by dividing the Medicare patient days by total patient days for rural
hospitals nationally (including those that closed). Then we summed the results and divided by the respective numbers of rural
hospitals -- closed and nationally.
Trends in Rural Hospital Closure: 1990-2000                     8                                                 OEI-04-02-00610
          Similarly, Medicaid utilization for the closed hospitals was 11 percent, compared to the national
          average of 12.1 percent.4 See Appendix B for annual Medicare and Medicaid utilization data.
          Figure 5 highlights the overall average utilization rates for closed rural hospitals and rural
          hospitals nationally.




          Number of patients affected: Consistent with their small size and low occupancy rates, rural
          hospitals that closed during 1990-2000 reported a low daily census in the year prior to closure.

          Total patients: Nationally, rural hospitals averaged 27 patients per day in contrast to 10
          patients among the rural hospitals that closed.

                                    CLOSED RURAL HOSPITALS : TOTAL PATIENT CENSUS

              Average Number of Beds                                                      39.56

              Average Occupancy Rate                                                     x 25.36%

              Average Number of Patients Daily                                            10.03


          Medicare and Medicaid patients: The average number of rural Medicare patients per day
          was 15 nationally, compared to 5 for the hospitals that closed. Furthermore, the average
          number of Medicaid patients per day was three nationally, in contrast to one in rural hospitals
          that closed.




          4
           Medicaid utilization is calculated in the same way as Medicare utilization.


Trends in Rural Hospital Closure: 1990-2000                      9                                  OEI-04-02-00610
                             CLOSED RURAL HOSPITALS : MEDICARE AND MEDICAID CENSUS

                                                                            Medicare          Medicaid

            Average Number of Patients Daily                                 10.03             10.03

            Average Medicare and Medicaid Utilization Rate                  x 53.85%          x 10.99%

            Average Number of Medicare and Medicaid Patients                  5.40              1.10



Reasons For Rural Hospital Closure

          Officials reported various factors that contributed to rural hospital closures. The primary
          reasons, however, were business-related decisions, such as relocations, consolidations, or
          mergers or a low number of patients (low occupancy/low census). Additionally, hospitals
          closed due to other factors, including rising costs or lagging revenues.

          During 1990-1997, we reported the reasons for hospital closure in four of our annual reports
          (1990, 1993, 1996, and 1997); however, that information did not differentiate between urban
          and rural closures. During those years, hospitals (urban and rural combined) generally closed
          because of low occupancy, lagging revenues, rising costs, or a combination of these factors.
          From 1998 through 2000, we collected information specific to the reasons for rural hospital
          closure. To determine those reasons, we interviewed senior executives, legal council, or other
          officials associated with the closed hospitals. Though some officials reported more than one
          reason for closure, the following information focuses on what they stated to be the primary
          reasons.

          Fifty-eight rural hospitals closed from 1998 through 2000. Officials associated with 25 (43.1
          percent) of those hospitals reported that the primary reason for closure was a business-related
          decision, such as relocation, consolidation, or merger. Fourteen (24.1 percent) of the closures
          were attributed to a low number of patients (low occupancy/low census). Only 6 (10.3
          percent) of the hospital officials reported insufficient Medicare and/or Medicaid reimbursements
          as the primary reasons for closure. Of those six officials, five stated that other factors, such as
          low occupancy and rising costs, also contributed.

          The remaining 13 (22.4 percent) hospitals were reported to have closed for various other
          reasons, such as competition or rising costs. Figure 6 provides a comparison of the primary
          reasons for rural hospital closure.




Trends in Rural Hospital Closure: 1990-2000                  10                                 OEI-04-02-00610
Impact of Rural Hospital Closure

Distance to inpatient and emergency care

          Inpatient care : In 138 of the 208 (66.3 percent) rural communities where a hospital closed,
          inpatient care was available within 20 miles from the closed hospital. Furthermore, residents in
          185 (88.9 percent) of those communities could get inpatient care within 30 miles from the
          closed hospital. For example, in 2000, a Michigan facility closed as a full-service hospital and
          transitioned to outpatient only. The closest
          full-service hospital was located 15 miles from that facility. In that case, the two facilities were
          under the same ownership and made this change to avoid a high percentage of overlapping
          services.

          In the remaining 23 of the 208 (11.1 percent) rural communities where a hospital closed, full-
          service inpatient care was located greater than 30 miles from the closed hospital. For example,
          in 1992, 2 hospitals closed in Montana that were 35 and 38 miles from the closest full-service
          hospitals. However, one of those facilities continued to provide outpatient service along with
          very limited inpatient care and the other was planning to do the same.

          Figure 7 shows summary information on the distances closed hospitals were from inpatient care
          that was still available.




Trends in Rural Hospital Closure: 1990-2000            11                                         OEI-04-02-00610
          Emergency care : When hospitals close, communities potentially lose access to emergency
          services as well as inpatient care. In 163 of the 208 (78.4 percent) rural communities where a
          hospital closed, emergency care was available within 20 miles of the closed facility.
          Furthermore, residents in 201 (96.6 percent) of those communities could get emergency care
          within 30 miles from the closed hospital. For example, an Ohio hospital that closed in 1998
          was within 5 miles from the closest emergency care. In that case, the emergency care was
          located within a full-service hospital.

          In the remaining 7 of the 208 (3.4 percent) rural communities where a hospital closed,
          emergency care was greater than 30 miles from the closed facility. For example, in 1993, 1
          hospital that closed in Michigan was 35 miles from the closest 24-hour emergency service.

          Figure 8 shows summary information on the distances closed hospitals were from emergency
          care that was still available.




Trends in Rural Hospital Closure: 1990-2000         12                                       OEI-04-02-00610
Factors that reduced the impact of rural hospital closure

          Hospital openings: Many hospitals opened or reopened in rural communities from 1990
          through 2000, reducing the national impact of hospital closure. Prior to 1998, however, we did
          not identify such data specific to rural or urban classifications. From 1990 through 1997, 64
          hospitals (urban and rural combined) opened or reopened. Those 64 hospitals are an
          aggregated total of openings and reopenings; therefore, we cannot identify how many of them
          were in rural communities.

          During 1998-2000, 28 rural hospitals either opened or reopened, reducing the national impact
          of the 58 rural hospitals that closed during that timeframe. Figure 9 illustrates the net number of
          rural hospital closures for those 3 years.




Trends in Rural Hospital Closure: 1990-2000           13                                         OEI-04-02-00610
          As stated earlier in the report, 25 (43.1 percent) of the rural hospitals that closed from 1998
          through 2000 were due to business-related decisions, such as relocation, consolidation, or
          merger. Of those closures, 12 (48 percent) were the direct result of relocation to newer
          buildings. When a hospital changed location, we reported it as a closure because the hospital
          had stopped providing general, short-term, acute care services in the physical plant from which
          it moved. However, for each of the 12 hospitals that relocated, the closure was offset by an
          opening of hospital services within a new building -- less than 5 miles from the old building.
          Therefore, impact on access to care was minimal when a hospital relocated.

          Critical Access Hospitals: As of May 2002, 604 critical access hospitals (CAHs) were
          operating in rural areas across the country. The critical access classification is intended to
          provide an increased level of Medicare reimbursements to small rural hospitals -- potentially
          avoiding closure.

          The Balanced Budget Refinement Act (BBRA) of 1999 requires hospitals classified as critical
          access to be more than 35 miles from another hospital; however, in rough terrain, such as
          mountainous or secondary roads, the requirement is 15 miles. Additionally, they must provide
          24-hour emergency service, have no more than 15 acute care beds, and maintain an average
          length of stay of no more than 96 hours per patient.

          CAHs meet our definition of general, short-term, acute care hospitals. Therefore, hospitals that
          made this conversion were not counted as closures, and those that opened were not
          differentiated from other openings. Though we could not directly quantify the extent that the
          critical access classification reduced the impact of rural closures, the 604 CAHs operating in
          2002 do provide access to hospital services in the rural areas where they are located. For
          example, a Wyoming hospital that closed in 1993 was able to reopen in 2000 as a CAH.

          Rural Health Clinics: A variety of alternatives to hospitals were used in rural areas across the
          United States. For example, of the 58 rural hospitals that closed from 1998 through 2000, 40
          of the facilities either converted to, or were located less than 20 miles from, a Rural Health
          Clinic (RHC). In 32 of the communities, multiple RHCs were less than 20 miles from the
          closed hospitals. For example, a rural California community lost its hospital in 1998; however,
          5 RHCs were located less than 20 miles from the closed facility.




Trends in Rural Hospital Closure: 1990-2000          14                                        OEI-04-02-00610
                                                                                 APPENDIX A


                         RURAL HOSPITAL CLOSURES BY STATE


          During the 11-year trend period, rural hospitals closed in 39 states

          Texas had the greatest number of rural closures (24), followed by Minnesota and Mississippi
          (15), Kansas (10), Montana (9) and California and Louisiana (8). These 7 states account for
          43 percent of all rural hospital closures from 1990 through 2000. The figure and table that
          follow show the frequency of rural closures for each state.



                                 Rural Closures By State




                                                                           Rate of Rural Closure
                                                                                 > 10          (3)
                                                                                 6 - 10      (12)
                                                                                 1- 5        (24)
                                                                                 No Closures (12)




Trends in Rural Hospital Closure: 1990-2000        15                                      OEI-04-02-00610
                                                                           APPENDIX A cont.



                         Number of Rural Hospital Closures By State (1990-2000)
                               Texas                                  24
                              Minnesota                               15
                              Mississippi                             15
                                Kansas                                10
                               Montana                                 9
                               California                              8
                               Louisiana                              8
                               Alabama                                7
                                 Iowa                                 7
                               Missouri                               7
                              Oklahoma                                7
                              Tennessee                               7
                              Arkansas                                6
                               Georgia                                6
                              Michigan                                6
                             North Dakota                             5
                              Nebraska                                5
                              Colorado                                4
                                Illinois                              4
                                 Ohio                                 4
                                Oregon                                4
                             South Dakota                             4
                              Wisconsin                               4
                            North Carolina                            3
                            South Carolina                            3
                                Utah                                  3
                            West Virginia                             3
                                Florida                               2
                                 Idaho                                2
                                Indiana                               2
                               Kentucky                               2
                             New Mexico                               2
                              New York                                2
                               Virginia                               2
                              Wyoming                                 2
                              Arizona                                 1
                             Maryland                                 1
                           New Hampshire                              1
                             Vermont                                  1




Trends in Rural Hospital Closure: 1990-2000        16                               OEI-04-02-00610
                                                                                          APPENDIX B


                           MEDICARE AND MEDICAID UTILIZATION


          Medicare utilization: Rural hospitals that closed had an average Medicare utilization of 53.9
          percent compared to an average of 55.5 percent for rural hospitals nationally. Medicare
          utilization was slightly higher among rural hospitals that closed in 4 of the 11 years, as
          shown in the following figure and table.




                            Annual Medicare Utilization Rates for Rural Hospitals

          Year               1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

 National Avg. % 51.2                  51.8    53.4   54.8    55.5   57.1   58.0   59.0   59.3   56.1    56.1

  Closed Avg. %              48.4      48.6    52.6   60.4    55.4   58.1   49.2   65.6   55.2   58.5    52.9




Trends in Rural Hospital Closure: 1990-2000
                 17                                   OEI-04-02-00610
                                                                                     APPENDIX B cont.


          Medicaid utilization: Rural hospitals that closed had an average Medicaid utilization of 11
          percent compared to an average of 12.1 percent for rural hospitals nationally. Although these
          averages are comparable, the yearly statistics show some variation as shown in the following
          figure and table.




                             Annual Medicaid Utilization Rates for Rural Hospitals

         Year                1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

 National Avg. % 10.6                  11.8    13.0   12.7    12.6   11.9   11.9   12.0   11.3   13.0    12.7

  Closed Avg. %              12.3      10.3    9.3    7.5     13.8   7.8    7.4    7.2    12.3   13.8    17.0




Trends in Rural Hospital Closure: 1990-2000
                 18                                   OEI-04-02-00610
                              ACKNOWLEDGMENTS

This report was prepared under the direction of Bill Moran, Acting Regional Inspector General for
Evaluation and Inspections in the Atlanta Regional Office and Graham Rawsthorn, Assistant Regional
Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:

Kevin Lawrence, Lead Analyst                   Tricia Davis, Director, Medicare and Medicaid 

Joe Townsel, Team Leader                       Linda Moscoe, Program Analyst 

Gerius Patterson, Program Analyst





Trends in Rural Hospital Closure: 1990-2000       19                                       OEI-04-02-00610
